No. 20-255

In The Supreme Court of the United States
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.

B.L., A MINOR, BY AND THROUGH HER
FATHER LAWRENCE LEVY AND HER MOTHER
BETTY LOU LEVY,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
AMICUS BRIEF OF THE AMERICAN CENTER
FOR LAW AND JUSTICE
IN SUPPORT OF NEITHER PARTY
JAY ALAN SEKULOW
Counsel of Record
STUART J. ROTH
JORDAN SEKULOW
COLBY M. MAY
WALTER M. WEBER
AMERICAN CENTER FOR
LAW & JUSTICE
201 Maryland Avenue, NE
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org
Counsel for Amicus Curiae

i
QUESTION PRESENTED
1. Whether Tinker v. Des Moines Independent
Community School District, 393 U.S. 503 (1969), which
construes the First Amendment as imposing limits on
public school authority to restrict student speech on
school premises, in fact somehow authorizes a public
school to assert disciplinary control over student
expression that is neither on campus nor part of a school
activity.
2. Whether a minor’s broadcast of a crude expletive
to other minors is protected First Amendment speech?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . iv
INTEREST OF AMICUS . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

Tinker Protects Student Speech; It Does Not
Authorize Schools to Police Off-Campus
Speech that Is Not Part of Any School
Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. The First Amendment does not affirmatively
authorize a school to police verbal
misbehavior outside a school context . . . . . . . 3
B. The school district’s proposed limits on its
authority are feeble and problematic . . . . . . . 6
C. The school district’s assertion of general
power over student lives is unnecessary
and poorly tailored to its concerns.. . . . . . . . . 8
D. A different rule might obtain in the specific
context of team sports, where cohesion and
morale are particularly important . . . . . . . . 12

iii
II. The Student’s First Amendment Claim Here
Nevertheless Fails Because the First Amendment
Does Not Protect a Minor’s Broadcast of an
Expletive to Other Minors . . . . . . . . . . . . . . . . . 14
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iv
TABLE OF AUTHORITIES
Page
CASES
Bethel School Dist. v. Fraser,
478 U.S. 682 (1986) . . . . . . . . . . . . . 15, 17, 18, 19
Board of Education v. Pico, 457 U.S. 853 (1982). . . 18
Cantwell v. Connecticut, 310 U.S. 296 (1940) . . . . . 16
Chaplinsky v. New Hampshire,
315 U.S. 568 (1942). . . . . . . . . . . . . . . . . . . . 15, 16
Cohen v. California,
403 U.S. 27 (1971). . . . . . . . . . . . . . . 10, 14, 16, 19
D.J.M. v. Hannibal Pub. Sch. Dist.,
647 F.3d 754 (8th Cir. 2011) . . . . . . . . . . . . . . . 10
FCC v. Fox TV Stations, Inc.,
556 U.S. 522 (2009). . . . . . . . . . . . . . . . . 17, 19, 21
FCC v. Pacifica Foundation,
438 U.S. 726 (1978). . . . . . . . . . . . . . 17, 18, 19, 20
Grayned v. City of Rockford,
408 U.S. 104 (1972). . . . . . . . . . . . . . . . . . . . . . . 12
Iancu v. Brunetti, 139 S. Ct. 2303 (2019). . . 16, 17, 19
J.S. v. Bethlehem Area Sch. Dist.,
569 Pa. 852, 807 A.2d 847 (Pa. 2002) . . . . . . . . . 9

v
Lamb’s Chapel v. Center Moriches Union
Free School Dist., 508 U.S. 384 (1993). . . . . . . . . 9
Liebenguth v. Connecticut,
No. 20-1045 (U.S. Feb. 22, 2021) . . . . . . . . . . . . 19
Morse v. Frederick, 551 U.S. 393 (2007). . . . . 1, 18, 19
Pierce v. Society of Sisters, 268 U.S. 535 (1925) . . . . 9
Pleasant Grove City v. Summum,
555 U.S. 460 (2009). . . . . . . . . . . . . . . . . . . . . . . . 1
RAV v. City of St. Paul, 505 U.S. 390 (1992) . . . . . . 20
Tinker v. Des Moines Independent
Community School District,
393 U.S. 503 (1969). . . . . . . . . . . . . . . . . 2, passim
Wisconsin v. Yoder, 406 U.S. 232 (1972) . . . . . . . . . 10
Wynar v. Douglas County Sch. Dist.,
728 F.3d 1062 (9th Cir. 2013) . . . . . . . . . . . . . . 10
Young v. American Mini Theatres,
427 U.S. 70 (1976). . . . . . . . . . . . . . . . . . . . . . . . 17

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . 1, passim

vi
OTHER AUTHORITIES
Br. for United States, Morse v. Frederick,
No. 06-278 (U.S. Jan. 16, 2007) . . . . . . . . . . . . . 17
Pew Research Center, “Teens, Social Media &
Technology 2018” (May 31, 2018) . . . . . . . . . . . 18

1
INTEREST OF AMICUS1
The American Center for Law and Justice (“ACLJ”)
is an organization dedicated to the defense of
constitutional liberties secured by law. ACLJ attorneys
have appeared frequently before this Court as counsel
for parties, e.g., Pleasant Grove City v. Summum, 555
U.S. 460 (2009), or for amici, e.g., Morse v. Frederick,
551 U.S. 393 (2007), addressing a variety of issues.
ACLJ attorneys have represented public school
students facing the restriction or denial of their free
speech rights. The imbalance of age and authority
between student and teacher or administrator make the
mere assertion of free speech rights daunting for most
public school children. Moreover, public schools, like
colleges and universities, face a constant temptation to
impose a suffocating blanket of political correctness,
institutional image protection, or both, upon the
educational atmosphere. Given these circumstances, the
vigorous defense of free speech rights in the public
schools is a matter of considerable importance.
That said, the First Amendment is not a licence to
broadcast foul language to minors. The ACLJ therefore
files this brief, not in support of the disgruntled
cheerleader’s particular vulgar and immature outburst,
which the First Amendment does not protect, but rather

1

The parties in this case have consented to the filing of this
amicus brief. No counsel for any party authored this brief in
whole or in part. No person or entity aside from amicus, its
members, or its counsel made a monetary contribution to the
preparation or submission of this brief.

2
in defense of the larger constitutional principles at
stake.
SUMMARY OF ARGUMENT
This Court should reject petitioner school district’s
assertion of general authority over student speech that
is not on school grounds or part of any activity (such as
sports, field trips, or online learning) over which the
school has supervisory authority. Tinker construes
limits on school authority to restrict student speech; it
does not empower schools to restrain speech, much less
any speech that has an adverse impact on school
operations. There are ample other authorities, from
parents to law enforcement, available to address
minors’ misbehavior. Moreover, a rule that only
targeted students for off-campus bad acts that disrupt
school operations would be arbitrarily underinclusive,
as non-students can inflict identical harms. Only in the
narrow context of a team sport might it make sense for
a school to take broader issues of character and team
morale into account.
In any event, the student’s free speech claim here
must fail. There is no First Amendment right for a
minor to broadcast obscene language and gestures to
other minors.
ARGUMENT
Both sides of this case have the constitutional law
wrong. This Court should reject the petitioner school
district’s assertion of police power to superintend the

3
private lives of students and others in the name of
remedying anything that adversely affects a school.
This Court should also reject the respondent student’s
claim of a free speech right to blast foul language out to
other minors.
I.

Tinker Protects Student Speech; It Does Not
Authorize Schools to Police Off-Campus
Speech that Is Not Part of Any School
Program.

This Court should reject the petitioner school
district’s assertion of plenary authority to supervise the
lives of students (and others) as to anything that may
adversely affect school operations.
A.

The First Amendment does not
affirmatively authorize a school to police
verbal misbehavior outside a school
context.

As discussed infra § II, the First Amendment does
not protect a minor’s broadcasting of profanity to other
minors, and B.L.’s free speech claim must fail for that
reason.2 But petitioner Mahanoy Area School District
makes a far more aggressive argument, an argument
2

After B.L. used Snapchat to send a message with foul language
and an obscene gesture, she sent a second “snap” with neither of
these elements, but also evincing disrespect for the coaches’
decision not to select her for varsity cheer. Pet. App. 5a. It is
unclear whether or how much the second snap factored into the
school district’s subsequent discipline of B.L. Compare id. at 5a
(focus on first snap alone) with Pet. at 6 (referencing both snaps).

4
this Court must reject. When launching her obscenities,
B.L. was not on school grounds, not part of a school trip
or after-school activity, and not part of a virtual school
program. Nor did she inject her Snapchat tantrum into
the school environment by showing it to other students
in any of these contexts. Hence, the government-run
school had no general3 authority to police B.L.’s
expression in the first place. The school district’s
attempt to leverage Tinker v. Des Moines Independent
Community School District, 393 U.S. 503 (1969), into a
grant of power to superintend nonschool behavior must
fail.
Tinker famously declared that students do not “shed
their constitutional rights . . . at the schoolhouse gate.”
393 US. at 506. The obvious premise for that statement
is that students do keep their rights outside the
schoolhouse gate.
Students . . . out of school are “persons” under our
Constitution. They are possessed of fundamental
rights which the State must respect, just as they
themselves must respect their obligations to the
State. In our system, students . . . may not be
confined to the expression of those sentiments that
are officially approved.
Id. at 511.
The school district treats Tinker as if it were an
authorization of school power. It is not. Tinker construed
the First Amendment, which is a limit on governmental
authority. To be sure, Tinker recognized boundaries on
3

The specific context of team sports is discussed infra § I(D).

5
the scope of that limitation. But those boundaries do not
represent affirmative conferrals of government power.
That a school may in a school context restrict
expressive behavior which would “impinge upon the
rights of other students,” Tinker, 393 US. at 509, does
not mean it may police misconduct by or against other
students generally – much less police “disruptive”
behavior by non-student “members of the public, ” Pet.
Br. at 4 . A neighbor, by playing loud music all evening,
may hinder a student’s ability to do homework4 or even
to get rest necessary for a school exam. A fellow student
may distract a classmate at home with endless text
messages, over the student’s objection. An envious peer
may deliberately report a theatrically talented student’s
misbehavior to that student’s parents to get the student
actor grounded and so miss tryouts for a school play.
Poor parenting, or the disruption arising from live-in
guests, may severely hamper a child’s in-school
performance. All of these may produce “substantial
disruption” of the school environment, at least as to the
affected students. But Tinker, as an interpretation of
First Amendment limits on school authority, does not
positively bestow disciplinary authority on schools to
police their students’ lives in nonschool contexts. “School
officials do not possess absolute authority over their
students,” id. at 511, even in school. A fortiori, they do
not enjoy such power outside the school context.

4

That a school has authority to assign homework, Pet. Br. at 20,
does not mean it has the authority to regulate the student’s home
environment or behavior.

6
B. The school district’s proposed limits on its
authority are feeble and problematic.
The school district here argues that the school
authority it seeks to exercise is limited: “no off-campus
speech is within schools’ ambit unless students direct
their speech at the school community.” Pet. Br. at 4.
This is not a serious limit. First, the school district has
already acknowledged that it wants the power to
regulate not just students, but “even members of the
public” whose speech allegedly “impairs school
functions.” Pet. Br. at 4. And second, “direct[ing] speech
at the school community” is a hopelessly vague and
overbroad standard that amounts in practice to a
restriction on speech the school finds sufficiently
undesirable. Hammering out the contours of such a
“directed at” test would far more likely “spawn years of
litigation,” Pet. Br. at 12, than the straightforward
question whether the activity in question is under school
supervision.5
Were schools to enjoy such general police power
over anything, anywhere, that “substantially disrupts
school activities or interferes with other students’
5

The school district betrays the immense breadth of its claimed
power when it uncritically describes a historical basis for schools
“disciplin[ing] offenses committed out of school hours and off
school grounds, which have a tendency to influence the conduct of
other pupils while in the school room, [or] to set at naught the
proper discipline of the school.” Pet. Br at 14 (emphasis added;
internal quotation marks and citation omitted). The school district
only acknowledges a subsequent limitation, from Tinker, over its
authority to address student speech. Pet. Br. at 17. Yet negative
(and positive) influences come from far more than just speech.

7
rights,” Pet. Br. at 10, school authority would be
enormous. Schools could supplement or supplant
parents6 in disciplining students – and even nonstudents, Pet. Br. at 4 (“even members of the public”) –
for a host of off-campus misconduct, and even for
conduct that is not necessarily wrongful but which has
a disruptive impact on school operations. In addition to
the examples mentioned above, schools could punish
students for reporting teacher misconduct to their
families, on the theory that the report – even (or
perhaps especially) if 100% accurate – provoked
protests or annoying parent inquiries. Clever – or
amateur – student satires of teachers or administrators
posted online might, like any satire, adversely impact
the target’s work.7 Schools could stifle the off-campus
expressive activities of students whose notoriety as
public advocates “substantially interferes” with student
focus in the classroom, so long as they invoked a
viewpoint neutral rationale. Schools could retaliate
against any off-campus efforts to organize protests,
strikes, etc., for whatever cause, in view of its adverse
impact on school operations – a result the school

6

Remarkably, the school district explicitly invokes in loco parentis
authority over “off-campus speech.” Pet. Br. at 10. See also id. at
13 (“coterminous authority with parents”).

7

The school district cites in its support a case “uph[olding] a
school’s suspension of high schoolers who convinced the local
newspaper to run a poem parodying the school’s rules,” because
the poem found its way into the homes of many classmates. Pet.
Br. at 15. But see Pet. Br. at 17 (admitting that Tinker
“heightened the showing that school must make”).

8
expressly embraces, Pet. Br. at 29, 46.8 And again, the
school asserts similar authority to deal with “members
of the public” as well. Pet. Br. at 4.
Contrary to the school district’s arguments, schools
are not like a “military base” and students are not like
soldiers. Compare Pet. Br. at 25-26. Nor are students
employees of the school whom the school can fire for bad
character. Compare Pet. Br. at 23, 26. See Tinker, 393
U.S. at 511-12 (forcefully rejecting Spartan military
model for education). But see infra § I(D).
C. The school district’s assertion of general
power over student lives is unnecessary and
poorly tailored to its concerns.
To be sure, many of the concerns the school district
identifies are valid and important. The remedy,
however, is not to give the public schools general police
power over anything that adversely affects school
operations. Such a power would be overbroad and would
ignore the availability of existing alternative means of
addressing student – and non-student – misconduct.
The school district objects to confining its authority
under a “territorial approach,” Pet. Br. at 4-5, 12, 35, 46.
But Tinker’s “schoolhouse gate” is not a physical line
but rather a jurisdictional line – the school context
sweeps more broadly than mere property boundaries.
Not only in-class activities, but also online schooling,
extracurricular clubs, school sports, and field trips all
8

A school’s ability to take action against any walkout or boycott
that disrupts school activities does not require a concomitant
power to suppress or punish related speech.

9
fall within a school’s purview and may be regulated
consistent with Tinker’s interpretation of the First
Amendment because in all of those contexts the school is
the supervising authority. See 393 U.S. at 512-13 (“in the
cafeteria, or on the playing field, or on the campus
during the authorized hours”).9 Likewise, a student may
invite school discipline by injecting outside matter into
the school environs. Thus, a student who shows a
classmate a disruptive or offensive message on a cell
phone10 does not escape school authority just because
the message may have been generated off-campus or by
nonschool actors, any more than passing a note during
class is exempt because the note was composed at home
over the weekend. Moreover, off-campus misconduct can
provide crucial context for the imposition of discipline
for in-school conduct, as when off-campus bullying colors
a student’s treatment of a classmate on school grounds
or in online instruction.
Importantly, schools are not the only resource for
addressing student misconduct. “The child is not the
mere creature of the State.” Pierce v. Society of Sisters,
268 U.S. 510, 535 (1925). To the contrary, the “primary
9

Conversely, the mere fact that an event occurs on school grounds
does not make it something subject to school superintendence
(aside from neutral user regulations). See Pet. Br. at 44 (use of
playground on weekends, third-party meeting held in school
room). Public schools may certainly regulate the time, place, and
manner of after-school use of school facilities, but schools may not
censor the speech of such users. Lamb’s Chapel v. Center Moriches
Union Free School Dist., 508 U.S. 384 (1993).

10

E.g., J.S. v. Bethlehem Area Sch. Dist., 569 Pa. 638, 645, 807
A.2d 847, 852 (Pa. 2002) (“J.S. . . . showed [threatening and
offensive website he had created] to another student at school”).

10
role of the parents in the upbringing of their children is
now established beyond debate as an enduring
American tradition.” Wisconsin v. Yoder, 406 U.S. 205,
232 (1972).11 Aside from parents, other adults – coaches
on nonschool sports teams, scout leaders, religious
leaders, and others – will be available as well to tamp
down on the misbehavior of minors. And of course,
should the misconduct rise to the level of criminal or
civil violations, such as cyberbullying,12 invasion of
privacy, revenge porn, or stalking, see, e.g., Pet. Br. at 22
(“crank calls,” bullying, and harassment), there are
ample law enforcement remedies already in place or
capable of enactment. Furthermore, schools need not
retain students whose speech suggests they represent a
genuine physical threat to other students.13

11

This case ought never to have been filed. The proper remedy for
dealing with respondent B.L.’s “absurd and immature antic,”
Cohen v. California, 403 U.S. 15, 27 (1971) (Blackmun, J.,
dissenting), would have been for school officials to advise her
parents, who could have addressed the matter as they saw fit.
Once B.L.’s parents learned of her tirade, they could have
themselves grounded her from the cheer squad and made her
apologize. That they chose instead to sue the school and make this
a federal case, despite the mild discipline the school imposed, is
a sorry reflection on our contemporary culture.
12

See Cyberbullying Research Center, “Bullying Laws Across
America,” available at https://cyberbullying.org/bullying-laws.
13

E.g., Wynar v. Douglas County Sch. Dist., 728 F.3d 1062 (9th
Cir. 2013) (school suspended student who discussed shooting
fellow students); D.J.M. v. Hannibal Pub. Sch. Dist., 647 F.3d 754
(8th Cir. 2011) (school suspended student who had sent messages
to another student talking about shooting various classmates).

11
Moreover, the school district’s focus on student
misbehavior is bizarrely narrow, illustrating exactly
why schools are not the proper authority to address
broader problems. The school district cites a litany of
egregious hypothetical misdeeds by students, Pet. Br. at
36-37, 39, 42-44. But claiming that school “authority to
address pernicious off-campus speech is essential to
safeguarding the wellbeing of the Nation’s more than
50 million public schoolchildren,” Pet. Br. at 37
(emphasis added), makes little sense. Schools do not
enjoy police authority over the universe of non-students.
It is therefore irrational to act as if schools, and only
schools, can address the misconduct the school district
identifies. This would mean that the same misdeed, with
the same pernicious impact on school operations, can be
remedied or not depending on whether or not the
perpetrator is a current student. A former student, a
student at a different public or private school (or home
school), and non-students generally are certainly
capable of bullying, harassment, encouraging students
to kill themselves, targeting black students with racist
photos, or spreading revenge porn, to use the school
district’s parade of (genuine) horribles, Pet. Br. at 36-37.
By placing the onus of enforcement on school officials,
the school district’s approach would miss all of these
other malefactors. Standard law enforcement, by
contrast, faces no such arbitrary limit. Likewise, while
students might post online instructions how to evade
drug testing or metal detectors, how to cheat on tests, or
how to hack the school computer system, Pet. Br. at 39,
former students and other persons not currently
enrolled at that particular school can do the same. In

12
fact, a simple online search will yield existing thirdparty websites containing this very information, plus
instructions on how to prank teachers.
The question is not whether a particular minor’s
behavior should be punished, but instead whether
government schools must be the ones to tackle the
problem.14 B.L.’s crude, juvenile use of Snapchat on her
own time and outside of school activities is a perfect
example of the kind of misbehavior that should be
addressed by nonschool authorities, ideally parents.
D. A different rule might obtain in the
specific context of team sports, where
cohesion and morale are particularly
important.
In the lower court the school district argued that
the specific context of team sports justified the school’s
discipline of B.L.’s speech. Pet. App. 23a n.10. Under
this much narrower contention, team members are
treated analogously to employees, as to whom an
employer can insist upon team cohesion and properly
consider extramural messaging that may undermine the
morale and chemistry of the work environment. This
argument has considerable force and does not entail
14

The school district, Pet. Br. at 18, invokes Grayned v. City of
Rockford, 408 U.S. 104 (1972), in support of school authority to
regulate off-campus speech. The citation is doubly inapt. First,
Grayned involved disruptive noise, not messages. Of course
government may address excessive noise that disrupts any place,
not just schools. Second, Grayned did not involve school discipline
of the protester, but local government law enforcement – precisely
the appropriate authority for such police power matters.

13
giving the school supervisory authority over students’
private lives in general. Rather, the school could only
properly consider communications (or misconduct) by
team members (not other students, even if they voice the
same gripes). Moreover, discipline could only address
disrespectfulness or other misconduct that undermines
team morale and chemistry, and the discipline would
need to be limited to the team context (e.g., suspension
from team events). As the Third Circuit noted,
Here, B.L. does not dispute that her speech would
undermine team morale and chemistry: She openly
criticized the program and questioned her coaches’
decisionmaking, causing a number of teammates
and fellow students to be “visibly upset” and to
approach the coaches with their “concerns,” J.A. 7
(citations omitted). She did so, moreover, in the
context of a sport in which team members rely on
each other for not only emotional and moral
support, but also physical safety.
Pet. App. 23a n.10. The school district, however, does
not appear to pursue this quite limited assertion of
supervisory authority before this Court. Instead, the
school district argues for much more far-reaching,
unjustifiable powers over student speech.
***
This Court should reject the petitioner school
district’s assertion of general power to impose discipline
for speech conducted off-campus, outside of any
curricular or extracurricular school activity, not on a

14
field trip, and not otherwise subject to school
superintendence. To that extent, the decision below was
correct.
II.

The Student’s First Amendment Claim Here
Nevertheless Fails Because the First
Amendment Does Not Protect a Minor’s
Broadcast of an Expletive to Other Minors.

The Third Circuit was correct to hold that Tinker
does not empower government-run schools to discipline
a minor’s misuse of social media just because that minor
is a student who addresses a school activity.
Nevertheless, B.L.’s First Amendment challenge15 fails
for a different, independent reason: her speech is not
protected by the First Amendment.
The student’s vulgar rant,16 had it happened within
the school’s proper jurisdiction, would clearly not enjoy
First Amendment protection.
The First Amendment guarantees wide freedom in
matters of adult public discourse. A sharply
divided Court upheld the right to express an
antidraft viewpoint in a public place, albeit in
terms highly offensive to most citizens. See Cohen
v. California, 403 U.S. 15 (1971). It does not follow,
15

B.L. brought three counts in her complaint. Pet. App. 6a; Cplt.
¶¶ 66-68. The first invokes the First Amendment against the
discipline the school imposed. The second and third counts
challenge the school’s cheer policy, invoking the First Amendment
and the Due Process Clause, respectively.
16

This section addresses only B.L.’s first snap. See supra note 2.

15
however, that simply because the use of an
offensive form of expression may not be prohibited
to adults making what the speaker considers a
political point, the same latitude must be
permitted to children in a public school. . . . [T]he
First Amendment gives a high school student the
classroom right to wear Tinker's armband, but not
Cohen’s jacket.
Bethel School Dist. v. Fraser, 478 U.S. 675, 682 (1986)
(emphasis added; internal quotation marks and citation
omitted). Hence, had B.L. uttered – or electronically
transmitted – her vulgarities in the classroom (including
online instruction), on school grounds, in the chat box of
a school’s virtual class, or at a school activity (such as a
cheerleading event), whether on or off campus, the
school’s imposition of sanctions for using foul language
and an obscene gesture would trigger no First
Amendment concerns.
In fact, even outside the school context, B.L.’s
utterance is not protected. As this Court explained in
Chaplinsky v. New Hampshire, 315 U.S. 568 (1942),
There are certain well-defined and narrowly
limited classes of speech, the prevention and
punishment of which have never been thought to
raise any Constitutional problem. These include
the lewd and obscene, the profane, the libelous,
and the insulting or “fighting” words – those which
by their very utterance inflict injury or tend to
incite an immediate breach of the peace. It has
been well observed that such utterances are no

16
essential part of any exposition of ideas, and are of
such slight social value as a step to truth that any
benefit that may be derived from them is clearly
outweighed by the social interest in order and
morality. “Resort to epithets or personal abuse is
not in any proper sense communication of
information or opinion safeguarded by the
Constitution, and its punishment as a criminal act
would raise no question under that instrument.”
Cantwell v. Connecticut, 310 U.S. 296, 309-310
[(1940)].
Chaplinsky, 315 U.S. at 571-72 (footnotes omitted).
B.L.’s expletive here was simply a crude insult of the
sort that aims to incite a hostile reaction. The whole
point of using foul language instead of “I’m sick of” or
“The heck with” would seem to be to offend.17 While
Cohen v. California immunized an adult’s profane
printed political expression on a jacket against criminal
prosecution, the Fraser case clarified that this ruling
does not necessarily apply to students addressing other
students, as here. 478 U.S. at 682.18 “Indeed, the
17

“The term . . . is not needed to express any idea and, in fact, as
commonly used today, generally signifies nothing except emotion
and a severely limited vocabulary.” Iancu v. Brunetti, 139 S. Ct.
2294, 2303 (2019) (Alito, J., concurring); id. at 2307 (Breyer, J.,
concurring in part and dissenting in part) (“scientific evidence
suggests that certain highly vulgar words have a physiological
and emotional impact that makes them different in kind from
most other words”).
18

As the federal government has previously noted, the
constitutional rights of students do not always enjoy the same
(continued...)

17
fundamental values necessary to the maintenance of a
democratic political system disfavor the use of terms of
debate highly offensive . . . to others.” Bethel School
District, 478 U.S. at 683 (internal quotation marks and
citation omitted).
Even for adults, at the most such “references to
excretory and sexual material surely lie at the periphery
of First Amendment concern,” FCC v. Fox TV Stations,
Inc., 556 U.S. 502, 522 (2009) (internal quotation marks
and citation omitted). See also Young v. American Mini
Theatres, 427 U.S. 50, 70 (1976) (“society’s interest in
protecting this type of expression is of a wholly different,
and lesser, magnitude than the interest in untrammeled
political debate”); Iancu v. Brunetti, 139 S. Ct. 2294,
2303 (2019) (Alito, J., concurring) (“vulgar terms . . .
play no real part in the expression of ideas”).
Moreover, this Court in FCC v. Pacifica
Foundation, 438 U.S. 726 (1978), held that indecent
speech – including precisely the expletive B.L. employed
– may be punished when broadcast to minors. As this
Court emphasized, context matters. As in Pacifica, the
speech at issue here is “accessible to children,” id. at 749
– in fact was directed at them, being “visible to about
250 ‘friends,’ many of whom were [fellow] students,” Pet.
App. 5a. Further, the message was transmitted through
social media, which have “a uniquely pervasive
18

(...continued)
sweep as those of adults. School drug testing, limits on vulgar
speech, and procedural due process requirements, for example,
can be valid against students when they would be struck down as
to adults. See Br. for United States, Morse v. Frederick, No.
06-278, at 9 n.1 (U.S. Jan. 16, 2007) (listing cases).

18
presence,” Pacifica, 438 U.S. at 748, and arguably
dominate the lives of today’s minors.19
This Court’s First Amendment jurisprudence has
acknowledged limitations on the otherwise
absolute interest of the speaker in reaching an
unlimited audience where the speech is sexually
explicit and the audience may include children . . .
even though the material in question [may be]
entitled to First Amendment protection with
respect to adults. And . . . all Members of the
Court, otherwise sharply divided, acknowledged
that the school board has the authority to remove
books that are vulgar. Board of Education v. Pico,
457 U.S. 853 . . . (1982). These cases recognize the
obvious concern on the part of parents, and school
authorities acting in loco parentis, to protect
children – especially in a captive audience – from
exposure to sexually explicit, indecent, or lewd
speech.
Bethel School Dist., 478 U.S. at 684 (emphasis added;
citations omitted); see also id. at 684-84 (explicitly
connecting this line of cases with the indecent words in
Pacifica).
While Morse v. Frederick, 551 U.S. 393 (2007),
opined that the student’s suggestive “metaphor” in
Bethel “would have been protected” had it been delivered
19

See, e.g., Pew Research Center, “Teens, Social Media &
Technology 2018” (May 31, 2018) (“Fully 95% of teens have access
to a smartphone, and 45% say they are online ‘almost
constantly’”).

19
“in a public forum outside the school context,” id. at 405
(emphasis added), this dicta is wholly consistent with
the proposition, supra § I, that government schools have
no general power to reach out into students’ private
lives. Unlike the present case, Bethel involved no crude
words or obscene gestures. As the author of the majority
opinion in Morse recently observed, laws targeting
“vulgarity and profanity” aim at terms “that offend
because of their mode of expression,” not “the ideas they
convey.” Iancu, 139 S. Ct. at 2303 (Roberts, C.J.,
concurring in part and dissenting in part) (emphasis
added). Morse did not purport to overrule Pacifica as to
such words, and the subsequent Fox TV ruling is
inconsistent with any such reading of Morse’s dicta.
Were Cohen and Morse taken to have enshrined the
crudest of expletives within the First Amendment, even
for persons addressing minors, there would be little if
anything that could be done to fend off foul language in
any context where more polite fare would be protected,
from prime-time TV to strangers spewing expletives in
the presence of children to hotheads breaching the peace
with profanity. Cf. Liebenguth v. Connecticut, U.S. No.
20-1045 (Feb. 22, 2021) (denying certiorari where lower
court upheld conviction for breach of peace for using “f”
word and “n” word to parking enforcement officer).
The present case does not even test the limit of this
Court’s precedents on the matter. See Fox TV, 556 U.S.
at 529 (“we have never held that Pacifica represented
the outer limits of permissible regulation, so that
fleeting expletives may not be forbidden. To the
contrary, we explicitly left for another day whether ‘an
occasional expletive’ in ‘a telecast of an Elizabethan

20
comedy’ could be prohibited. [Pacifica,] 438 U.S., at
748-750”) (emphasis added). To borrow from this Court’s
Young opinion, “few of us would march our sons and
daughters off to war to preserve the citizen’s right to”
drop the “‘f’ bomb” or “flip the bird.”
This is not a case where a minor utters a dirty word
in private, or discusses the academic significance of
expletives with a friend. And this is certainly not a case
of adults using salty language among themselves.
Rather, this case involves a blanket spewing of foul
language, used as an offensive, provocative expletive,
intentionally broadcast to minors in a medium
pervasively accessible to those minors.20 If an adult
stranger could constitutionally be barred from firing a
profanity-laced message to hundreds of minors, thereby
“enlarg[ing] [each] child’s vocabulary in an instant,”
Pacifica, 438 U.S. at 749, then it cannot be that the
venerable right to free speech protects such crudity
here.21
20

Of course, were the school to invoke an aversion to coarse
language in a viewpoint-based manner – punishing curse words
in disfavored contexts but not favored contexts – this would raise
the “realistic possibility that official suppression of ideas is afoot.”
RAV v. City of St. Paul, 505 U.S. 377, 390 (1992). But here, there
is no reason to think the school would have tolerated, for example,
B.L. snapping “F– those who diss cheer or diss my school.”
21

The increasingly frequent use of such expletives does not trigger
constitutional protection. As this Court explained,
The [court below] believed that children today “likely hear this
language far more often from other sources . . .” and that this
cuts against more stringent regulation of broadcasts. Assuming
(continued...)

21
Since B.L..’s speech was not protected under the
First Amendment, her free speech claim fails, and the
respondent school district was entitled to judgment in
its favor on Count I of the Verified Complaint.22 This
Court should therefore reverse the judgment below and
remand for consideration of B.L.’s remaining claims.

21

(...continued)
the premise is true . . . the conclusion does not necessarily
follow. [An agency] could reasonably conclude that the
pervasiveness of foul language, and the coarsening of public
entertainment in other media such as cable, justify more
stringent regulation of broadcast programs so as to give
conscientious parents a relatively safe haven for their children.

Fox TV, 556 U.S. at 529-30 (citation omitted).
22

Amicus does here address B.L.’s remaining counts.

22
CONCLUSION
This Court should reverse the judgment of the
Third Circuit and remand for further proceedings.
Respectfully submitted,
Jay Alan Sekulow
Counsel of Record
Stuart J. Roth
Jordan Sekulow
Colby M. May
Walter M. Weber
American Center for
Law & Justice
201 Maryland Avenue, NE
Washington, DC 20002
(202) 546-8890
sekulow@aclj.org
Counsel for Amicus Curiae
March 1, 2021

